                        OFFICE OF
                 THE INSPECTOR GENERAL
                       U.S. NUCLEAR
                 REGULATORY COMMISSION


                        Audit of NRC’s Management of
                         Import/Export Authorizations

                     OIG–04-A-19      September 13, 2004




                         AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
             http://www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                          September 13, 2004




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations

                            Janice Dunn Lee
                            Director, Office of International Programs



FROM:                       Stephen D. Dingbaum/RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S MANAGEMENT OF
                            IMPORT/EXPORT AUTHORIZATIONS
                            (OIG-04-A-19)

Attached is the Office of the Inspector General’s audit report titled Audit of NRC’s
Management of Import/Export Authorizations.

The report reflects the results of our audit to determine whether the Office of
International Programs was (1) properly reviewing and approving import/export
authorizations in a timely manner, (2) effectively coordinating this activity with
other Federal agencies, and (3) efficiently and effectively coordinating
import/export authorizations internally. The audit found that the Office of
International Programs approved license applications in a timely manner in
compliance with Title 10 of the Code of Federal Regulations, Part 110 and
effectively coordinated with other Federal agencies. However, license
processing costs are under-recovered and the internal coordination relating to
the proper review and approval of import/export license applications requires
improvement to correct documentation weaknesses.

This report makes recommendations to address the issues identified by
enhancing management controls.

Comments provided at the August 10, 2004, exit conference, and via subsequent
e-mails, have been incorporated, as appropriate, in our final report.

If you have any questions or wish to discuss this report, please call me at
415-5915 or Steven Zane at 415-5912.

Attachment: As stated

cc: W. Dean, OEDO
Distribution List

B. John Garrick, Chairman, Advisory Committee on Nuclear Waste
Mario V. Bonaca, Chairman, Advisory Committee on Reactor Safeguards
John T. Larkins, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
G. Paul Bollwerk, III, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
William N. Outlaw, Director of Communications
Dennis K. Rathbun, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Patricia G. Norry, Deputy Executive Director for Management Services, OEDO
William F. Kane, Deputy Executive Director for Homeland Protection
  and Preparedness, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research
  and State Programs, OEDO
Ellis W. Merschoff, Deputy Executive Director for Reactor Programs, OEDO
Jacqueline E. Silber, Chief Information Officer
Michael L. Springer, Director, Office of Administration
Frank J. Congel, Director, Office of Enforcement
Guy P. Caputo, Director, Office of Investigations
Paul E. Bird, Director, Office of Human Resources
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Carl J. Paperiello, Director, Office of Nuclear Regulatory Research
Paul H. Lohaus, Director, Office of State and Tribal Programs
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
Office of Public Affairs, Region I
Office of Public Affairs, Region II
Office of Public Affairs, Region III
Office of Public Affairs, Region IV
                                    Audit of NRC’s Management of Import/Export Authorizations



EXECUTIVE SUMMARY

BACKGROUND

             The Atomic Energy Act of 1954, as amended, assigns responsibility
             for licensing imports and/or exports of specified nuclear materials
             and equipment to the U.S. Nuclear Regulatory Commission (NRC).
             Title 10 of the Code of Federal Regulations, Part 110 (10 CFR 110)
             contains the regulations that prescribe licensing, enforcement, and
             rulemaking procedures. NRC’s Office of International Programs
             (OIP) administers the agency’s import/export licensing program. In
             carrying out this responsibility, NRC coordinates with other
             Executive Branch agencies such as the Departments of State and
             Energy, which review license applications forwarded by OIP. NRC
             has historically processed approximately 100 import/export license
             applications per year, but this is expected to increase to about 280
             in FY 2005.

PURPOSE

             The objectives of this audit were to determine whether OIP was
             (1) properly reviewing and approving import/export authorizations in
             a timely manner, (2) effectively coordinating this activity with other
             Federal agencies, and (3) efficiently and effectively coordinating
             import/export authorizations internally.

RESULTS IN BRIEF

             The audit found that OIP approved license applications in a timely
             manner in compliance with 10 CFR 110 and effectively coordinated
             with other Federal agencies. However, license processing costs
             are under-recovered and the internal coordination relating to the
             proper review and approval of import/export license applications
             requires improvement to correct documentation weaknesses.

             License Processing Costs are Under-Recovered

             Although Federal laws and regulations require recovery of the full
             cost of processing import/export license applications via fees
             (hereafter referred to as flat fees), NRC under-recovered the full
             cost of processing these applications. The agency’s calculation of
             flat fees, fails to accurately estimate the hours used, resulting in
             under-recovered costs of approximately $800,000 in FY 2002 and




                                         i
                                Audit of NRC’s Management of Import/Export Authorizations



          approximately $600,000 in FY 2003. In the instance of under-
          recovered costs, NRC recoups the under-recovery via the General
          Fund and/or the annual fees charged to the agency’s other
          licensees.

          Quality Control Process Needs Improvement

          NRC properly reviewed and approved 96 percent of the FY 2003
          import/export license applications. However, four of the ninety-
          eight applications reviewed during this audit were not fully
          documented in NRC’s files. These exceptions were caused in part
          by the lack of written quality control procedures and checklists and
          in part by the lack of a provision allowing issuance of licenses
          based on verbal approvals.

RECOMMENDATIONS

          The report makes recommendations to the Director, OIP to
          enhance management controls.

AGENCY COMMENTS

          During an exit conference on August 10, 2004, NRC staff generally
          agreed with the findings and recommendations in this report
          (except as explained below) and provided comments to clarify
          certain sections. We modified the report, as we determined
          appropriate, in response to those comments. Management chose
          not to provide written comments for inclusion in this report.

          Management expressed concerns about the accuracy of the
          estimated under-recovered costs of processing import/export
          license applications for FYs 2002 and 2003. The calculations are
          estimates based on the best information available in NRC’s books
          and records.




                                     ii
                               Audit of NRC’s Management of Import/Export Authorizations



ABBREVIATIONS AND ACRONYMS

   ADAMS       Agency-wide Documents Access and Management System
   10 CFR 110 Title 10 of the Code of Federal Regulations Part 110
   10 CFR 170 Title 10 of the Code of Federal Regulations Part 170
   IAEA        International Atomic Energy Agency
   IOAA        The Independent Offices Appropriations Act of 1952
   NMSS        Office of Nuclear Material Safety and Safeguards
   NRC         U.S Nuclear Regulatory Commission
   NSIR        Office of Nuclear Security and Incident Response
   OBRA 90     The Omnibus Budget Reconciliation Act of 1990
   OCFO        Office of the Chief Financial Officer
   OGC         Office of the General Counsel
   OIG         Office of the Inspector General
   OIP         Office of International Programs




                                   iii
          Audit of NRC’s Management of Import/Export Authorizations




[Page intentionally left blank.]




               iv
                                           Audit of NRC’s Management of Import/Export Authorizations



TABLE OF CONTENTS


    EXECUTIVE SUMMARY .......................................................................... i
    ABBREVIATIONS AND ACRONYMS .....................................................iii
            I. BACKGROUND ....................................................................... 1
            II. PURPOSE .............................................................................. 2
            III. FINDINGS............................................................................... 2
                     A. LICENSE PROCESSING COSTS ARE UNDER-RECOVERED .... 3
                     B. QUALITY CONTROL PROCESS NEEDS IMPROVEMENT.......... 6
            IV. CONSOLIDATED LIST OF RECOMMENDATIONS.............. 10


    APPENDICES
        A. Scope and Methodology ............................................................. 11
        B. Import/Export License Fee Categories and Associated Fees ..... 13
        C. Office of International Programs’ Time and Labor Codes ........... 15




                                                 v
          Audit of NRC’s Management of Import/Export Authorizations




[Page intentionally left blank.]




               vi
                                                Audit of NRC’s Management of Import/Export Authorizations



I. BACKGROUND

                  The Atomic Energy Act of 1954, as amended, assigns responsibility
                  for licensing imports and/or exports of specified nuclear materials
                  (including, but not limited to byproduct material,1 source material,2
                  and special nuclear material3) and equipment, such as coolant
                  pumps, and spare and replacement parts, to the NRC. 10 CFR 110
                  contains the regulations that prescribe licensing, enforcement, and
                  rulemaking procedures. NRC’s OIP administers the agency’s
                  import/export licensing program. In carrying out this responsibility,
                  NRC coordinates with other Executive Branch agencies such as the
                  Departments of State and Energy, which review license
                  applications forwarded by OIP.

                  NRC’s licensing authority includes: nuclear reactors, source and
                  special nuclear materials, heavy water, nuclear grade graphite, and
                  radioactive waste. In addition to OIP, other NRC offices process
                  license applications. The Office of Nuclear Security and Incident
                  Response (NSIR) provides assurance that international safeguards
                  and physical security at recipient sites meet International Atomic
                  Energy Agency (IAEA) criteria. The Office of Nuclear Material
                  Safety and Safeguards (NMSS) provides advice concerning imports
                  of radioactive waste and the Office of the General Counsel (OGC)
                  assists with legal matters pertaining to significant license
                  applications.

                  OIP has five employees that process import/export license
                  applications. In addition, NSIR, NMSS and OGC each devote less
                  than one person per year to license processing. The Commission
                  expects to issue a proposed regulation change that would increase
                  control of specified nuclear byproduct materials by requiring
                  import/export license applications for certain nuclear materials not
                  previously requiring a license application (such as Cesium-137 and

1
  Byproduct material – (1) Any radioactive material (except special nuclear material) yielded in or made
radioactive by exposure to the radiation incident to the process of producing or utilizing special nuclear
material and (2) the tailings or wastes produced by the extraction or concentration of uranium or thorium
from any ore processed primarily for its source material content. [Source: Atomic Energy Act of 1954,
Section 11 (e)]
2
  Source material – Uranium or thorium or any combination thereof, in any physical or chemical form; or ores
that contain by weight 0.05 percent or more of (1) uranium, (2) thorium, or (3) any combination thereof.
Source material includes depleted uranium and natural uranium, but not “special nuclear material.” [Source:
Title 10 CFR Part 40.4]
3
 Special nuclear material – Plutonium, uranium-233, uranium enriched in the isotopes uranium-233 or
uranium-235, and any other material which the Commission, pursuant to the provisions of Section 51 of the
Atomic Energy Act of 1954, as amended, determines to be special nuclear material, but does not include
source material; or any material artificially enriched by any of the foregoing, but does not include source
material. [Source: Title 10 CFR Part 74.4]


                                                      1
                                              Audit of NRC’s Management of Import/Export Authorizations



                       Iridium-192). OIP expects that the regulation change, if approved,
                       would dramatically increase the current level of import/export
                       applications by two or three times in FY 2005.

                       The chart below shows the number of import/export license
                       applications processed during FYs 2001 through 2003. The
                       FY 2004 information is a projection based on nine months data and
                       the FY 2005 figure is an estimate obtained from an OIP official.


                        Import/Export License Applications Processed Per
                                           Fiscal Year
                 300
  Applications
   Number of




                 200

                 100
                              121             82                 98                 83                280
                  0
                                2001          2002               2003             2004              2005




II. PURPOSE

                       The objectives of this audit were to determine whether OIP was
                       (1) properly reviewing and approving import/export authorizations in
                       a timely manner, (2) effectively coordinating this activity with other
                       Federal agencies, and (3) efficiently and effectively coordinating
                       import/export authorizations internally.


III. FINDINGS

                       The audit found that OIP approved license applications in a timely
                       manner in compliance with 10 CFR 110 and effectively coordinated
                       with other Federal agencies. However, license processing costs
                       are under-recovered and the internal coordination relating to the
                       proper review and approval of import/export license applications
                       requires improvement to correct documentation weaknesses.




                                                   2
                                                   Audit of NRC’s Management of Import/Export Authorizations



       A. LICENSE PROCESSING COSTS ARE UNDER-RECOVERED

                    Although Federal laws and regulations require recovery of the full
                    cost of processing import/export license applications via fees, NRC
                    under-recovered the full cost of processing these applications.
                    Applicants for import/export licenses pay flat fees that fall into one
                    of five categories. 4 To develop these flat fees, OIP provides the
                    Office of the Chief Financial Officer (OCFO) with the estimated
                    average hours spent processing each category of license. The
                    estimated hours for each fee category, multiplied by the materials
                    rate5 (developed in accordance with Title 10 of the Code of Federal
                    Regulations, Part 170 (10 CFR 170)), determine the fees charged.
                    The agency’s calculation of flat fees, while properly using the
                    materials rate, fails to accurately estimate the hours used, resulting
                    in under-recovered costs of approximately $800,000 in FY 2002
                    and approximately $600,000 in FY 20036. In the instance of under-
                    recovered costs, NRC recoups the under-recovery via the General
                    Fund and/or the annual fees charged to the agency’s other
                    licensees.

                    Applicable Laws and Regulations

                    NRC’s authority to charge fees derives from the Independent
                    Offices Appropriations Act of 1952 (IOAA) and the Omnibus Budget
                    Reconciliation Act of 1990 (OBRA 90), both of which provide a
                    statutory basis for the flat fees charged to obtain an import/export
                    license. Excerpts from these laws, as well as from 10 CFR 170,
                    which deals with the flat fees for import/export licenses, follow.

                              The Independent Offices Appropriations Act of 1952

                    The IOAA states: "The head of each agency…may prescribe
                    regulations establishing the charge for a service or thing of value
                    provided by the agency…Each charge shall be—(1) fair; and (2)
                    based on — (A) the costs to the Government….”

                              The Omnibus Budget Reconciliation Act of 1990

                    The OBRA 90 Conference Report states NRC User Fees, "must
                    reasonably be related to the regulatory service provided by the
                    NRC and fairly reflect the cost to the NRC of providing the service."

4
    Appendix B lists the five import/export license fee categories along with the associated fees.
5
    OCFO develops the materials rate.
6
    See the subsection titled Under-Recovery of Costs for further discussion of these estimated shortfalls.


                                                        3
                       Audit of NRC’s Management of Import/Export Authorizations




       Title 10 of the Code of Federal Regulations, Part 170

10 CFR 170.12(b)(1) states: "Licensing fees will be assessed to
recover full costs for - (i) The review of applications for new
licenses and approvals; (ii) The review of applications for
amendments to and renewal of existing licenses or approvals”…

10 CFR 170.12(b)(2) further states: “Full cost fees will be
determined based on the professional staff time…expended. The
full cost fees for professional staff time will be determined at the
professional hourly rates in effect at the time the service was
provided.”

Calculation of Flat Fees Is Deficient

Currently, NRC does not fully adhere to the requirements of IOAA,
OBRA 90, and 10 CFR 170, because the calculation of flat fees is
deficient. Specifically, NRC needs to:

•   Improve procedures for estimating total hours per license,
•   Provide clear guidance on time charging, and
•   Perform monitoring.

       Procedures for Estimating Total Hours per License

The agency’s calculation of flat fees, while properly using the
materials rate, fails to accurately estimate the hours used to
process import/export license applications. OIP’s estimates of
hours date back to 1991 and continue to be used today. OIP and
OCFO representatives could not explain the sketchy documentation
supporting the 1991 estimates. To develop accurate estimates
based on current processing times, OIP needs to properly record
and use actual hours expended by agency staff in processing
import/export license applications.

       Guidance on Time Charging

Until recently, OIP staff charged their time processing import/export
license applications, regardless of fee category, to a single time
code titled “Import/Export Licensing Reviews.” As a result, OIP did
not distinguish between times spent on each of the five fee
categories. Furthermore, OIP did not provide clear guidance to




                            4
                                                 Audit of NRC’s Management of Import/Export Authorizations



                    NRC staff on time charging. Specifically, the time charged to the
                    one time code reflects only the time charged by OIP staff and
                    excludes direct time processing applications expended by
                    representatives of other NRC offices (OGC, NSIR, and NMSS7).

                    Beginning in May 2004, OIP staff discontinued the use of the single
                    time code and began charging their time spent processing
                    import/export license applications to eleven time codes.8 These
                    added time codes represent an attempt by OIP to accumulate
                    hourly data for further analysis in refining the calculation of flat fees.
                    The new time codes, however, fail to accumulate hours in a manner
                    that corresponds with the five existing fee categories. The lack of
                    correlation between time codes and fee categories prevents OIP
                    from using the hours expended in developing accurate license
                    application fees.

                             Monitoring

                    To ensure that import/export license fee computations reflect
                    current, accurate, and complete information, OIP needs to perform
                    monitoring in the course of normal operations. Specifically, OIP
                    should periodically compare flat fees collected with the full cost of
                    processing import/export license applications and make
                    adjustments to the flat fees as warranted. Office of Management
                    and Budget Circular A-123, revised, Management Accountability
                    and Control, requires management controls, which reasonably
                    ensure that “reliable and timely information is obtained, maintained,
                    reported and used for decision making.”

                    Under-Recovery of Costs

                    The agency’s calculation of flat fees resulted in shortfalls of
                    approximately $800,000 in FY 2002 and approximately $600,000 in
                    FY 2003. Stated differently, the fees collected for import/export
                    license applications are less than the costs of processing them.
                    During FYs 2002 and 2003, the import/export license application
                    fees collected by NRC represented only 15 percent and 28 percent
                    of the processing costs, respectively. As a result, NRC had to
                    recover the shortfalls via the General Fund and/or the annual fees
                    charged to the agency’s other licensees.




7
  However, as part of the Biennial Review of Fees, OCFO works with NMSS and NSIR to identify their direct
time spent on import-export licenses and includes estimates of these hours in the flat fees for these licenses.
8
    Appendix C lists the eleven time codes currently used by OIP.


                                                       5
                                                Audit of NRC’s Management of Import/Export Authorizations



                  The aforementioned shortfalls are estimates based on the best
                  information available in NRC’s books and records. Due to
                  limitations in NRC’s data, characteristics of the estimates may, in
                  some instances, be under or overstated.9

                  RECOMMENDATION

                  The Office of the Inspector General (OIG) recommends that the
                  Director of the Office of International Programs:

                  1. Develop and implement a written methodology for the annual
                     calculation of import/export license application fees that
                     provides for correlation between time codes and fee categories
                     and results in the development of fair and equitable license
                     application fees that recover the agency’s full cost of processing
                     the applications.


    B. QUALITY CONTROL PROCESS NEEDS IMPROVEMENT

                  NRC properly reviewed and approved 96 percent of the FY 2003
                  import/export license applications. However, four of the ninety-
                  eight applications reviewed during this audit were not fully
                  documented in NRC’s files. Current licensing procedures require
                  that the OIP licensing staff receive a memo from NSIR indicating
                  that the international safeguards and physical security review had
                  been performed and the criteria for approval had been met.
                  Reportedly, in two cases, the OIP licensing staff issued the license
                  based on verbal approval, contrary to the licensing procedure. In
                  one case, there was no memo providing formal approval. In the
                  second case, the memo was dated four days after the license was
                  issued. These exceptions were caused in part by the lack of written
                  quality control procedures and checklists and in part by the lack of
                  a provision allowing issuance of licenses based on verbal
                  approvals.




9
 The shortfalls may be overstated because the OIP staff charged their time spent on all licensing related
matters to a single time code, the hours collected include time spent on rulemaking, general
correspondence, answering requests for information, and interagency and international meetings, which
cannot be billed to licensees. However, because the only hours available are the aggregate hours, those
were used to calculate the recovery of costs. The shortfalls may be understated, as the effort of other NRC
offices (OGC, NSIR, NMSS) isn’t included in the single time code that was used by OIP personnel. The
shortfalls may be further understated, as our analysis did not include the OIP effort for October 2001, which
was not available.


                                                      6
                       Audit of NRC’s Management of Import/Export Authorizations



The failure to use a checklist can result in quality control
weaknesses, which, in turn, could lead to the granting of an
import/export license without proper review and approval. Such
circumstances could increase the vulnerability to the agency if there
is a loss of control over specified nuclear material.

Applicable Regulations and Agency Policy

The review of import/export license applications is required by 10
CFR 110. To comply with international safeguards and physical
security requirements, OIP relies on evaluations from NSIR, which
provides assurance that international safeguards and physical
security at recipient sites meet International Atomic Energy Agency
standards. OIP Policies and Procedures No.15 (effective August
1993) specifies that prior to being issued, license applications must
be maintained in the Public Document Room for a 15-day period for
public comment. The Agency-wide Documents Access and
Management System (ADAMS) has become the forum through
which the public can access import/export license applications.
This policy gives the public an opportunity to express their views on
the granting of a particular import/export license.

Compliance Exceptions

Compliance testing of NRC’s processing of the ninety-eight FY
2003 import/export license applications disclosed four exceptions.

•   Two exceptions occurred because of inadequate documentation
    of the review required under the international safeguards and
    physical security requirements of 10 CFR 110.

•   A third exception resulted from an inconsistency in the license
    regarding the amount of source material approved for export.
    The differing quantities within the license could cause confusion
    regarding the correct amount of source material to be exported.

•   The fourth exception relates to NRC’s failure to include a license
    application in ADAMS for public comment. Such action
    precluded the public from expressing any objections to the
    proposed export.

A more detailed description of the first two exceptions follows.

In one case, a license was granted, but the file did not include the
required notification from NSIR regarding international safeguards
and physical security requirements. Although an NSIR log


                            7
                       Audit of NRC’s Management of Import/Export Authorizations



indicated that a response was sent prior to the issuance of the
license, documentation could not be provided. In another case, the
required notification from NSIR concerning international safeguards
and physical security requirements was dated four days after the
license was issued. In this circumstance, there was a note on an e-
mail saying, “Verbal OK from NSIR. Memo is to come.” The note
is not dated and fails to indicate who provided the approval.

Security Vulnerabilities

Import/export licensing helps to combat the inappropriate spread of
specified nuclear materials. Exceptions in the processing of
import/export license applications could expose the public to
potentially harmful consequences. The four exceptions noted
above include:

•   Two license applications for the export of uranium hexafluoride,
    which if released into the atmosphere, can form a highly toxic
    chemical compound; and

•   Two license applications for the export of Uranium-235, which,
    with extensive enrichment, can be used to produce nuclear
    weapons.

Improper processing of import/export license applications could
lead to security vulnerabilities regarding control of nuclear
materials.

Quality Control Weaknesses

The lack of written quality control procedures results in compliance
exceptions. Written procedures, including the proper use of a
checklist, would help ensure compliance with all applicable
requirements. The license application files contain a tracking list
that could easily be modified into a quality control checklist. The
checklist should contain steps to achieve compliance with all
applicable requirements for the processing of import/export license
applications and provide evidence of supervisory review and
approval.

The significant increase anticipated in the number of license
applications heightens the importance of quality controls.




                            8
                      Audit of NRC’s Management of Import/Export Authorizations



RECOMMENDATION

The OIG recommends that the Director of the Office of International
Programs:

2.    Develop and implement written quality control procedures to
      include the use of a checklist.




                           9
                              Audit of NRC’s Management of Import/Export Authorizations



IV. CONSOLIDATED LIST OF RECOMMENDATIONS

        The OIG recommends that the Director of the Office of International
        Programs:

        1. Develop and implement a written methodology for the annual
           calculation of import/export license application fees that
           provides for correlation between time codes and fee categories
           and results in the development of fair and equitable license
           application fees that recover the agency’s full cost of processing
           the applications.

        2. Develop and implement written quality control procedures to
           include the use of a checklist.




                                  10
                             Audit of NRC’s Management of Import/Export Authorizations



                                                                         Appendix A
SCOPE AND METHODOLOGY

       This audit reviewed NRC’s import/export licensing application
       process to determine whether OIP was (1) properly reviewing and
       approving import/export authorizations in a timely manner, (2)
       effectively coordinating this activity with other Federal agencies,
       and (3) efficiently and effectively coordinating import/export
       authorizations internally.

       To accomplish the audit objectives, the OIG reviewed and analyzed
       pertinent laws and regulations. In addition, OIG identified and
       analyzed OIP guidance. OIG conducted interviews with selected
       NRC officials to gain an understanding of the agency’s processing
       of import/export license applications as well as practices employed
       in license fee development. Interviews were conducted to
       determine current issues, problems, known deficiencies and to
       assess management controls. OIG interviewed personnel in the
       Offices of International Programs, Chief Financial Officer, General
       Counsel, Nuclear Material Safety and Safeguards, and Nuclear
       Security and Incident Response. OIG also met with
       representatives from the Department of State and Department of
       Energy.

       OIG conducted compliance tests of NRC’s processing of
       FY 2003 import/export license applications. OIG also analyzed the
       license fee development process. OIG reviewed and analyzed
       management controls related to the audit objectives.

       This work was conducted from February through May 2004, in
       accordance with Generally Accepted Auditing Standards.
       Steven Zane, Team Leader, Steven Shea and Susan Jones, Senior
       Auditors and Amanda Hollander, Intern conducted the work.




                                 11
   Audit of NRC’s Management of Import/Export Authorizations




[Page intentionally left blank.]




       12
                      Audit of NRC’s Management of Import/Export Authorizations




                                                                 Appendix B

IMPORT/EXPORT LICENSE FEE CATEGORIES AND
ASSOCIATED FEES




                          13
          Audit of NRC’s Management of Import/Export Authorizations




[Page intentionally left blank.]




              14
                       Audit of NRC’s Management of Import/Export Authorizations



                                                                  Appendix C


OFFICE OF INTERNATIONAL PROGRAMS’ TIME AND LABOR
CODES

        I00015       Import/Export Licensing & Consultations –
                     General

        I00016       Import/Export Licensing & Consultations –
                     Import Waste (IW)

        I00017       Import/Export Licensing & Consultations –
                     Byproduct Material (XB)

        I00018       Import/Export Licensing & Consultations –
                     Components (XCOM)

        I00019       Import/Export Licensing & Consultations –
                     Heavy Water (Deuterium), or Nuclear Grade
                     Graphite

        I00020       Import/Export Licensing & Consultations –
                     Reactor (XR)

        I00021       Import/Export Licensing & Consultations –
                     Special Nuclear Material (XSNM)

        I00022       Import/Export Licensing & Consultations –
                     Source (XSOU)

        I00023       Import/Export Licensing & Consultations –
                     Export Waste (XW)

        I00024       Import/Export Licensing & Consultations – Part
                     810 Technology Retransfers

        I00025       Import/Export Licensing & Consultations –
                     Rulemaking




                           15
